                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

Case Number: I04 100041
                                                                       1         Page 1 of 1



          In the course of a proactive review, it was noted that in 2002 a grantee1 returned
    -$44,000 under three NSF award^.^ We learned that the grantee had reviewed its
    expenditures under all of its NSF awards and found a total of -$87,000 that had been
    overcharged, which it had repaid to NSF.

          The grantee explained to us that the mischarges had resulted fiom "misunderstandings
    and mistakes," and it had improved its training and procedures to ensure that they could not
    happen again. Accordingly, this case is closed.
